                                        January 10, 2007




MEMORANDUM TO:             Chairman Klein



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   TRANSMITTAL OF THE INDEPENDENT
                           AUDITORS’ REPORT ON THE CONDENSED
                           FINANCIAL STATEMENTS OF THE UNITED
                           STATES NUCLEAR REGULATORY COMMISSION
                           FOR FISCAL YEARS 2006 AND 2005 (OIG-07-A-08)

Office of Management and Budget Circular No. A-136, Revised, July 24, 2006,
Financial Reporting Requirements, encourages all entities that produce a
Performance and Accountability Report (PAR) to prepare a PAR Highlights
Document (the Document). The objective of the Document is to highlight some
of the more important aspects of the PAR, and to make available to interested
parties a condensed document that is more "user-friendly" than the detailed full-
scope PAR. The purpose of this memorandum is to transmit R. Navarro &
Associates, Inc. (RNA) Auditors’ Report on the Condensed Financial Statements
included in the Document.

RNA is responsible for the attached unqualified auditors’ opinion, dated
November 7, 2006. The Office of the Inspector General (OIG) is responsible for
technical and administrative oversight regarding the firm’s performance under the
terms of the contract. Our oversight of RNA’s work, as differentiated from an
audit in conformance with Government Auditing Standards, was not intended to
enable us to express, and accordingly we do not express, an opinion on the
condensed financial statements included in the Document. However, OIG’s
oversight of RNA’s work disclosed no instances where RNA did not comply with
applicable auditing standards.

We appreciate the cooperation provided by NRC staff.

Attachment: As stated

cc: Commissioner McGaffigan
    Commissioner Merrifield
    Commissioner Jaczko
    Commissioner Lyons
